W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-17

David Hargreaves

Nuverra Environmental Solutions, aka Heckman Cor

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Ryan Shores

Date:

7/21/21

Digitally signed by Ryan Shores
Date: 2021.07.21 13:49:30 -04'00'

(Type or print) Name Ryan Shores
Mr.

Ms.

Mrs.

Firm

Shearman & Sterling LLP

Address

401 9th Street, NW, Suite 800

City & State

Washington, DC

Phone

(202) 508-8058

Miss

Zip 20004-2128
Email

ryan.shores@shearman.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Aaron D. Van Oort, Counsel of Record
Faegre Drinker Biddle & Reath LLP
2200 Wells Fargo Center, 90 South 7th Street
Minneapolis, MN 55402

